      DEPARTMENT OF HEALTH & HUMAN SERVICES                              Office of Inspector General

                                                                         Washington, D.C. 20201




September 7, 2011

TO:            Donald Berwick, M.D.
               Administrator
               Centers for Medicare & Medicaid Services


FROM:          /Lori S. Pilcher/
               Acting Deputy Inspector General for Audit Services


SUBJECT:       Review of Place-of-Service Coding for Physician Services Processed by Medicare
               Part B Contractors During Calendar Year 2009 (A-01-10-00516)


The attached final report provides the results of our review of place-of-service coding for
physician services processed by Medicare Part B carriers during calendar year 2009.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that the Office of Inspector
General (OIG) post its publicly available reports on the OIG Web site. Accordingly, this report
will be posted at http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
your staff may contact Brian P. Ritchie, Assistant Inspector General for the Centers for Medicare
& Medicaid Audits, at (410) 786-7104 or through email at Brian.Ritchie@oig.hhs.gov. We look
forward to receiving your final management decision within 6 months. Please refer to report
number A-01-10-00516 in all correspondence.


Attachment
Department of Health and Human Services
            OFFICE OF
       INSPECTOR GENERAL




          REVIEW OF
 PLACE-OF-SERVICE CODING FOR
     PHYSICIAN SERVICES
        PROCESSED BY
MEDICARE PART B CONTRACTORS
 DURING CALENDAR YEAR 2009




                       Daniel R. Levinson
                        Inspector General

                        September 2011
                         A-01-10-00516
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

Medicare Part B pays for services that physicians provide to program beneficiaries. Although
physicians routinely perform many of these services in a hospital outpatient department or a
freestanding ambulatory surgical center (ASC), some of these services may also be performed in
nonfacility settings, such as a physician’s office, an urgent care center, or an independent clinic.
To account for the increased overhead expense that physicians incur by performing services in
nonfacility locations, Medicare reimburses physicians at a higher rate for certain services
performed in these locations. However, when physicians perform these same services in facility
settings, such as hospital outpatient departments or ASCs, Medicare reimburses the overhead
expenses to the facility and the physician receives a lower reimbursement rate.

Physicians are required to identify the place of service on the health insurance claim forms that
they submit to Medicare contractors. The correct place-of-service code ensures that Medicare
does not incorrectly reimburse the physician for the overhead portion of the payment if the
service was performed in a facility setting.

Our audit covered 494,129 nonfacility-coded physician services valued at $42,245,142 that were
provided in calendar year 2009 and that matched hospital outpatient or ASC claims for the same
type of service provided to the same beneficiary on the same day.

OBJECTIVE

The objective of our audit was to determine whether physicians correctly coded nonfacility
places of service on selected Part B claims submitted to and paid by Medicare contractors.

SUMMARY OF FINDING

Physicians did not always correctly code nonfacility places of service on Part B claims submitted
to and paid by Medicare contractors. Physicians correctly coded the claims for 17 of the 100
services that we sampled. However, physicians incorrectly coded the claims for 83 sampled
services by using nonfacility place-of-service codes for services that were actually performed in
hospital outpatient departments or ASCs. The incorrect coding resulted in overpayments totaling
$2,979.

Based on these sample results, we estimated that Medicare contractors nationwide overpaid
physicians $9.5 million for incorrectly coded services provided during calendar year 2009. We
attribute the overpayments to internal control weaknesses at the physician billing level and to
insufficient postpayment reviews at the Medicare contractor level to identify potential place-of-
service coding errors.




                                                  i
RECOMMENDATIONS

We recommend that the Centers for Medicare & Medicaid Services (CMS) instruct its Medicare
contractors to:

   •   recover the $2,979 in overpayments for the sampled services;

   •   immediately reopen the claims associated with the 494,029 nonsampled services, review
       our information on these claims (which have estimated overpayments of $9,498,443), and
       work with the physicians who provided the services to recover any overpayments;

   •   continue to strengthen their education process and reemphasize to physicians and their
       billing agents the importance of correctly coding the place of service and the need for
       internal controls to prevent Medicare billings with incorrect place-of-service codes; and

   •   continue to work with program safeguard contractors and, if necessary to coordinate
       Part A and Part B data matches, with other Medicare contractors to (1) develop a data
       match that will identify physician services at high risk for place-of-service miscoding and
       (2) recover any identified overpayments.

CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS

In comments on our draft report, CMS concurred with our recommendations and described the
corrective actions that it was taking or planned to take. CMS requested that we provide the data
necessary to recover overpayments for the sampled and nonsampled services. With respect to
the nonsampled services, CMS stated that it would review the most appropriate claims based on
the cost-effectiveness of the review. CMS’s comments are included in their entirety as
Appendix D.

We will provide CMS with the requested data.




                                                ii
                                                   TABLE OF CONTENTS

                                                                                                                                Page

INTRODUCTION................................................................................................................1

         BACKGROUND ........................................................................................................1
             Medicare Part B Payments for Physician Services ...........................................1
             Medicare Reimbursement for Practice Expense ...............................................1
             Medicare Contractors ........................................................................................1
             Prior Office of Inspector General Reports ........................................................2

          OBJECTIVE, SCOPE, AND METHODOLOGY .....................................................2
              Objective ...........................................................................................................2
              Scope .................................................................................................................2
              Methodology .....................................................................................................2

FINDING AND RECOMMENDATIONS .........................................................................4

          PAYMENTS BASED ON INCORRECT PLACE OF SERVICE ............................4
             Medicare Requirements ....................................................................................4
             Results of Sample .............................................................................................4
             Estimate of Overpayments ................................................................................5
             Internal Control Weaknesses and Insufficient Postpayment Reviews ..............5

          RECOMMENDATIONS ...........................................................................................6

          CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS ..............6


APPENDIXES

          A: PRIOR OFFICE OF INSPECTOR GENERAL REPORTS

          B: SAMPLE DESIGN AND METHODOLOGY

          C: SAMPLE RESULTS AND ESTIMATES

          D: CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS




                                                                     iii
                                       INTRODUCTION

BACKGROUND

Medicare Part B Payments for Physician Services

Medicare Part B pays for services that physicians provide to program beneficiaries. Physician
services include medical and surgical procedures, office visits, and medical consultations. These
services may be provided in facility settings, such as hospital outpatient departments and
freestanding ambulatory surgical centers (ASC), or in nonfacility locations, such as physician
offices, urgent care centers, and independent clinics.

Physicians are paid for services according to the Medicare physician fee schedule. This schedule
is based on a payment system that includes three major categories of costs required to provide
physician services: practice expense, physician work, and malpractice insurance.

Medicare Reimbursement for Practice Expense

Practice expense reflects the overhead costs involved in providing a service. To account for the
increased practice expense that physicians generally incur by performing services in their offices
and other nonfacility locations, Medicare reimburses physicians at a higher rate for certain
services performed in these locations rather than in a hospital outpatient department or an ASC.
Physicians are required to identify the place of service on the health insurance claim forms that
they submit to Medicare contractors. The correct place-of-service code ensures that Medicare
does not incorrectly reimburse the physician for the overhead portion of the service if the service
was performed in a facility setting.

Medicare claim form instructions specifically state that each provider or practitioner is
responsible for becoming familiar with Medicare coverage and billing requirements. Some
physician offices submit their own claims to Medicare; other offices hire billing agents to submit
their claims. Physicians are responsible for any Medicare claims submitted by billing agents.

Medicare Contractors

Historically, Medicare Part B carriers, under contract with the Centers for Medicare & Medicaid
Services (CMS), have processed and paid claims submitted by physicians, clinical laboratories,
suppliers, and ASCs. Medicare Part A fiscal intermediaries, also under contract with CMS, have
processed and paid claims submitted by hospital outpatient departments. Section 911 of the
Medicare Prescription Drug, Improvement, and Modernization Act of 2003 requires CMS to
transfer the functions of carriers and fiscal intermediaries to Medicare administrative contractors
(MAC) between October 2005 and October 2011. Many, but not all, of the MACs are fully
operational; for jurisdictions where the MACs are not fully operational, the fiscal intermediaries
and carriers continue to process claims. In this report, the term “Medicare contractor” means the
carrier, fiscal intermediary, or MAC, whichever is applicable.




                                                 1
As authorized by the Health Insurance Portability and Accountability Act of 1996, CMS
contracts with program safeguard contractors to perform Medicare program integrity activities. 1
Under CMS’s Umbrella Statement of Work, these contractors conduct medical reviews, cost
report audits, data analyses, provider education, and fraud detection and prevention.

Prior Office of Inspector General Reports

Our previous reviews found that several Medicare contractors overpaid physicians who did not
correctly identify the place of service on their billings. (See Appendix A.) Our
recommendations in those reports called for the Medicare contractors to educate physicians
regarding proper billing, recover identified overpayments, and analyze postpayment data to
detect and recover overpayments for improperly billed claims. The Medicare contractors and
CMS generally concurred with our recommendations.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

The objective of our audit was to determine whether physicians correctly coded nonfacility
places of service on selected Part B claims submitted to and paid by Medicare contractors.

Scope

Our nationwide audit covered 494,129 nonfacility-coded physician services valued at
$42,245,142 that were provided during calendar year 2009 and that matched hospital outpatient
or ASC claims for the same type of service provided to the same beneficiary on the same day.

The objective of our audit did not require an understanding or assessment of the complete
internal control structure at the nonfacility locations or the Medicare contractors. Therefore, we
limited our review of internal controls at nonfacility locations to obtaining an understanding of
controls related to developing and submitting Medicare claims. We limited our review of
internal controls at the Medicare contractors to the payment controls in place to prevent
overpayments resulting from place-of-service billing errors.

We conducted our fieldwork from November 2010 through January 2011.

Methodology

To accomplish our objective, we:

      •    reviewed applicable Medicare laws and regulations;

      •    reviewed the calendar year 2009 physician fee schedule to identify the types of physician
           services that had varying payment levels depending on the place of service;
1
    CMS is replacing program safeguard contractors with zone program integrity contractors.


                                                          2
   •   used data from the National Claims History file to match physician claims for services
       with varying payment levels that were coded as having been performed in nonfacility
       locations to claims from hospital outpatient departments or ASCs for the same service
       provided to the same beneficiary on the same date and identified 494,129 physician
       services;

   •   selected a stratified random sample of 100 paid services, stratified by the type of
       corresponding facility claim (i.e., hospital outpatient or ASC), from the sampling frame
       of services that were potentially billed with incorrect place-of-service codes
       (Appendix B);

   •   reviewed paid claim data from the Common Working File for each sampled service to
       validate the payment amount and to determine the place of service identified on the
       claim;

   •   sent detailed internal control questionnaires and requests for medical and billing records
       to, and received responses from, the 92 physicians who provided the 100 sampled
       services;

   •   reviewed questionnaire responses and medical and billing records and, if necessary,
       followed up with physicians or their billing agents to request additional information to
       confirm the correct place of service, identify coding discrepancies, and identify the
       causes of incorrect coding;

   •   followed up with hospital outpatient departments and ASCs, when necessary, to verify
       that the sampled services were performed at the facilities;

   •   calculated any Medicare overpayments for the sampled services;

   •   reviewed Common Working File data to determine whether claims for the sampled
       services had subsequently been adjusted;

   •   estimated the total value of overpayments in the sampling frame (Appendix C); and

   •   discussed the results of our review with CMS and contractor officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our finding and conclusions based on our audit objective.




                                                3
                                  FINDING AND RECOMMENDATIONS

Physicians did not always correctly code nonfacility places of service on Part B claims submitted
to and paid by Medicare contractors. Physicians correctly coded the claims for 17 of the 100
services that we sampled. However, physicians incorrectly coded the claims for 83 sampled
services by using nonfacility place-of-service codes for services that were actually performed in
hospital outpatient departments or ASCs. The incorrect coding resulted in overpayments totaling
$2,979.

Based on these sample results, we estimated that Medicare contractors nationwide overpaid
physicians $9.5 million for incorrectly coded services provided during calendar year 2009. We
attribute the overpayments to internal control weaknesses at the physician billing level and to
insufficient postpayment reviews at the Medicare contractor level to identify potential place-of-
service coding errors.

PAYMENTS BASED ON INCORRECT PLACE OF SERVICE

Medicare Requirements

Medicare payments for physician services are based on the lower of the actual charge or the
physician fee schedule amount. 2

For a physician to receive the nonfacility practice expense payment for a service, the service
must meet the requirements of 42 CFR § 414.22(b)(5)(i)(B). During our audit period, 3 this rule
provided: “The nonfacility [practice expense relative value units] apply to services performed in
a physician’s office, a patient’s home, a nursing facility, or a facility or institution other than a
hospital or skilled nursing facility, community mental health center, or ASC.” CMS publishes a
physician fee schedule in the Federal Register showing those services that have a higher
payment rate if they are performed in nonfacility locations. For calendar year 2009, a large
majority of physician services with payments that varied depending on place of service resulted
in a higher payment when they were billed with a nonfacility place of service code.

Results of Sample

Physicians incorrectly coded the place of service for 83 of the 100 sampled services. 4 Although
all 83 services were coded as having been performed in a nonfacility location, 53 of the services


2
    Section 1848(a)(1) of the Social Security Act, 42 U.S.C. § 1395w-4(a)(1).
3
 CMS revised 42 CFR § 414.22(b)(5)(i)(A) and (B) at 73 Fed. Reg. 69726, 69935 (Nov. 19, 2008), effective
January 1, 2009.
4
  For 17 sampled services, physicians correctly coded their offices as the place of service. Our match identified
these services as potentially miscoded because they were for beneficiaries who had two evaluation and management
procedures performed on the same day, one by a physician in the physician’s office and the other by a different
practitioner in a hospital outpatient department.


                                                           4
were actually performed in hospital outpatient departments and 30 were ASC-approved
procedures performed in ASCs.

Of the 83 incorrectly coded services, 2 did not result in an overpayment because the physician’s
billing did not exceed the Medicare fee schedule amount for the correct facility setting. For each
of the 81 remaining services, the physician’s actual charge exceeded the Medicare fee schedule
amount associated with the facility place-of-service code. Therefore, when those services were
billed with the nonfacility place-of-service code, the Medicare contractors incorrectly reimbursed
the physicians for the overhead portion of their services.

                                  Example of Incorrect Coding

       A carrier paid a physician $279 for performing a biopsy procedure coded as
       having been performed in his office. Our analysis showed that the physician
       actually performed this procedure in a hospital outpatient department and that a
       Medicare contractor had reimbursed the hospital for the overhead portion of the
       service. If the claim had been coded correctly, the physician would have received
       a payment of $133 which would not have included overhead costs. As a result of
       the incorrect coding, the physician was overpaid $146.


By repricing claims using the correct place-of-service code, we determined that Medicare
contractors overpaid physicians $2,979 for the 83 services that physicians had billed incorrectly.

Estimate of Overpayments

Based on these sample results, we estimated that Medicare contractors nationwide overpaid
physicians $9,501,422 for services provided in calendar year 2009 that were billed using
incorrect place-of-service codes. (See Appendix C.)

Internal Control Weaknesses and Insufficient Postpayment Reviews

Many physicians had not implemented internal controls to prevent billings with incorrect
place-of-service codes. Physicians and their billing personnel or billing agents told us that they
had coded the place of service incorrectly for one or more of the following reasons:

   •   Physicians’ billing personnel or billing agents were confused about the precise definition
       of a “physician’s office” or other nonfacility location or were simply following
       established practice in applying the nonfacility codes.

   •   Physicians’ billing agents were unaware that an incorrect place-of-service code could
       change the Medicare payment for a specific service.

   •   Personnel made isolated data entry errors.




                                                 5
    •   Undetected flaws in the design or implementation of some billing systems caused all
        claims to be submitted with a nonfacility location as the place of service.

Physicians and their staff used the nonfacility place-of-service codes even though they knew, or
should have known, that the services were performed in a facility location. Medicare claim form
instructions specifically state that each provider or practitioner who submits claims to Medicare
is responsible for becoming familiar with Medicare coverage and billing requirements.

In addition, Medicare contractors and program safeguard contractors had not established
sufficient postpayment reviews through coordinated data matches of Part A and Part B payments
to identify potential place-of-service coding errors. 5

RECOMMENDATIONS

We recommend that CMS instruct its Medicare contractors to:

    •   recover the $2,979 in overpayments for the sampled services;

    •   immediately reopen the claims associated with the 494,029 nonsampled services, review
        our information on these claims (which have estimated overpayments of $9,498,443),
        and work with the physicians who provided the services to recover any overpayments;

    •   continue to strengthen their education process and reemphasize to physicians and their
        billing agents the importance of correctly coding the place of service and the need for
        internal controls to prevent Medicare billings with incorrect place-of-service codes; and

    •   continue to work with program safeguard contractors and, if necessary to coordinate
        Part A and Part B data matches, with other Medicare contractors to (1) develop a data
        match that will identify physician services at high risk for place-of-service miscoding and
        (2) recover any identified overpayments.

CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS

In comments on our draft report, CMS concurred with our recommendations and described the
corrective actions that it was taking or planned to take. CMS requested that we provide the data
necessary to recover overpayments for the sampled and nonsampled services. With respect to
the nonsampled services, CMS stated that it would review the most appropriate claims based on
the cost-effectiveness of the review. CMS’s comments are included in their entirety as
Appendix D.

We will provide CMS with the requested data.



5
 Our prior place-of-service audits found that some program safeguard contractors, in coordination with Medicare
contractors, performed limited postpayment reviews.


                                                        6
APPENDIXES
        APPENDIX A: PRIOR OFFICE OF INSPECTOR GENERAL REPORTS


               Report Title and Number                         Issue Date


Review of Payments Made by National Heritage Insurance
Company for Ambulatory Surgical Procedures for
Calendar Year 2001 (A-01-02-00524)                            July 23, 2003

Review of Place of Service Coding for Physician Services—
Wisconsin Physician Services, Madison, Wisconsin
(A-05-04-00025)                                             October 7, 2004

Review of Place of Service Coding for Physician Services—
Trailblazer Health Enterprises, LLC, for the Period
January 1, 2001, Through December 31, 2002
(A-06-04-00046)                                             January 21, 2005

Review of Place of Service Coding for Physician Services
(A-02-04-01010)                                             January 26, 2005

Review of Place of Service Coding for Physician Services
Processed by National Heritage Insurance Company
During Calendar Years 2002 and 2003 (A-01-06-00502)         December 7, 2006

Review of Place-of-Service Coding for Physician Services
Processed by First Coast Service Options, Inc., During
Calendar Years 2004 and 2005 (A-01-07-00518)                  July 8, 2008

Review of Place-of-Service Coding for Physician Services
Processed by Medicare Part B Carriers During Calendar
Years 2005 and 2006 (A-01-08-00528)                          June 17, 2009

Review of Place-of-Service Coding for Physician Services
Processed by Medicare Part B Carriers During Calendar         July 28, 2010
Year 2007 (A-01-09-00503)
                APPENDIX B: SAMPLE DESIGN AND METHODOLOGY

SAMPLING FRAME

The sampling frame was a database of 494,129 nonfacility-coded physician services for calendar
year 2009 that matched hospital outpatient or ambulatory surgical center (ASC) claims for the
same service provided to the same beneficiary on the same day. We stratified the sampling
frame into two strata. The first stratum consisted of 450,809 physician services that matched
hospital outpatient claims, and the second stratum consisted of 43,320 physician services that
matched ASC claims.

SAMPLE UNIT

The sample unit was a nonfacility-coded line item of service billed by a physician that matched a
line item of service billed by a hospital outpatient department or an ASC.

SAMPLE DESIGN

We used a stratified random sample. Stratum 1 consisted of physician line items of service that
matched hospital outpatient line items of service, and stratum 2 consisted of physician line items
of service that matched ASC line items of service.

SAMPLE SIZE

We selected 100 matched line items of service: 70 from stratum 1 and 30 from stratum 2.

SOURCE OF RANDOM NUMBERS

We used the Office of Inspector General, Office of Audit Services, statistical software to
generate the random numbers.

METHOD OF SELECTING SAMPLED ITEMS

We consecutively numbered the sample units in the frame from 1 to 450,809 in stratum 1 and
from 1 to 43,320 in stratum 2. After generating 70 random numbers for stratum 1 and 30 for
stratum 2, we selected the corresponding sample units.

ESTIMATION METHODOLOGY

We used the Office of Inspector General, Office of Audit Services, statistical software to
estimate the overpayments.
                 APPENDIX C: SAMPLE RESULTS AND ESTIMATES

                                          Sample Results



               Frame        Frame         Sample   Sample       Number of       Value of
 Stratum        Size        Value          Size     Value      Overpayments   Overpayments


1 – Hospital
  outpatient
               450,809 $31,952,733          70      $4,679           53         $1,041

2 – ASC         43,320    10,292,409        30       6,339           30          1,938



   Total       494,129 $42,245,142         100     $11,018           83         $2,979




                                    Estimated Overpayments

                  (Limits Calculated for a 90-Percent Confidence Interval)

                         Point estimate                      $9,501,422

                         Lower limit                          7,502,675

                         Upper limit                         11,500,169
                            APPENDIX D: CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS
    .....SERVICes, 

~.,..'             t;r
f                                                               Page 1 of 4

(~l                           DEPARTMENT OF HEALTH & HUMAN SERVICES                                    Centers for Medicare & Medicaid Services


                                                                                                       Administrator
                                                                                                       Washington, DC 20201




                           DATE:           AUG 0 4 2011

                           TO: 	         Daniel R. Levinson
                                         Inspector General

                           FROM: 	       Donald M. Berwick,    M.~                  \\ \   f\_   ~                   ,M
                                         Administrator         c::~0'~ (~Vv-
                           SUBJECT: 	 Office oflnspector General (OIG) Draft Report: "Review of Place-of-Service
                                         Coding for Physician Services Processed by Medicare Part B Contractors During
                                         Calendar Year 2009" (A-Ol-1O-00516)


                           Thank you for the opportunity to review and comment on the Office oflnspector General's
                           (OIG's) draft report, "Review of Place-of-Service Coding for Physician Services Processed by
                           Medicare Part B Contractors During Calendar Year 2009." The Centers for Medicare &
                           Medicaid Services (CMS) appreciates the time and resources the OIG has invested to determine
                           the extent to which physicians correctly coded nonfacility places of service on selected Part B
                           claims submitted to and paid by Medicare.

                           Part B services are provided in facility settings (e.g., outpatient hospital departments and
                           ambulatory surgical centers (ASCs), and in nonfacility settings (e.g., a physician's office, an
                           urgent care center, an independent clinic, etc.). Medicare reimburses physicians at a higher rate
                           for certain services performed in nonfacility locations to account for overhead expenses. A
                           lower payment is made to the physician when the same procedures are provided in facility
                           settings because the overhead costs are reimbursed to the facility separately.

                           During this audit, the OIG reviewed claims for approximately 100 services and concluded certain
                           claims for Part B services were incorrectly coded for the place of service. The OIG's
                           recommendations included recoupment of improper payments and strengthening efforts to
                           educate physicians on the importance of the correct use of place-of-service codes.

                           When problems with operational billing or coding policy are identified, CMS typically conducts
                           additional education, both nationally and through its fee-for-service (FFS) contractors, to remind
                           providers of proper billing and coding procedures. In addition, once claims have been paid,
                           CMS employs several strategies to ensure the accuracy of payment. The CMS coordinates the
                           development of contractor medical review policy and processes to ensure both automated and
                           complex medical reviews are done accurately. Medicare Administrative Contractors (MACs)
                           conduct analysis on claims data and adjust their individual medical review strategies based on
                           identified problem areas.
 APPENDIX D: CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS
                                                            Page 2 of 4
Page 2 Daniel R. Levinson



The CMS looks forward to continually working with OIG on issues related to waste, fraud and
abuse in the Medicare program.

The OIG made the following recommendations:

OIG Recommendation 1

The CMS should recover the $2,979 in overpayments for the sampled services.

CMS Response

The CMS concurs. The CMS agrees that the $2,979 in overpayments should be recovered. CMS
plans to recover the overpayments identified consistent with the agency's policies and
procedures.

The CMS requests that the OIG provide for each overpayment or potential overpayment the data
necessary (Medicare contractor numbers, provider numbers, claims information including the
paid date, HIC numbers, etc.) to initiate and complete recovery action. In addition, CMS
requests that Medicare contractor specific data be written to separate cd-roms or separate
hardcopy worksheets in order to better facilitate the transfer of information to the appropriate
contractors.

OIG Recommendation 2

The CMS should immediately reopen the claims associated with the 494,029 nonsampled
services, review our information on these claims (which have estimated overpayments of
$9,498,443) and work with the physicians who provided the services to recover any
overpayments.

CMS Response

The CMS concurs with comments. CMS will consider reviewing the most appropriate claims
based on the cost effectiveness of review. Based on the findings in the June 17,2009 OIG
report, "Review of Place of Service Coding for Physician Services Processed by Medicare Part B
Carriers During Calendar Years 2005 and 2006," CMS undertook a pilot project to review non­
sampled claims and determined that it was not cost effective to review the non-ASC claims since
the cost of investigation and collection exceeded the amount recovered.

 The CMS considers return on investment when conducting medical review due to the limited
 resources associated with medical review activities. The CMS attempts to focus its medical
 review resources on the most highly vulnerable areas as identified by sources such as the
 Comprehensive Error Rate Testing (CERT) program and the individual contractors' data
 analysis. The CERT program annually measures the error rate for the Medicare FFS program and
 provides the agency with improper payment data.
 APPENDIX D: CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS
                                                            Page 3 of 4
Page 3 Daniel R. Levinson


In addition, CMS has approved Recovery Auditors to review this issue. If improper payments are
identified, they will be recovered in accordance with CMS policy.

OIG Recommendation 3

The CMS should continue to strengthen its education process and reemphasize to physicians and
their billing agents the importance of correctly coding the place of service and the need for
internal controls to prevent Medicare billing with incorrect place-of-service codes (POS).

CMS Response

The CMS concurs with the recommendation and believes that correct coding of claims is critical
to efficient claim processing and accurate payments. We recognize the complex nature of the
POS coding and the evolving nature of medical practice for different types of services. CMS is
developing comprehensive instructions, which will include provider and education outreach, that
will provide detailed guidance on the proper use ofPOS codes. We anticipate issuing
instructions by the end of 2011.

OIG Recommendation 4

The CMS should continue to work with program safeguard contractors and, if necessary to
coordinate Part A and Part B data matches, with other Medicare contractors to (1) develop a data
match that will identify physicians' services at high risk for place-of-service miscoding and (2)
recover any identified overpayments.

CMS Response

The CMS concurs. As recommended, CMS' Program Safeguard Contractors/Zone Program
Integrity Contractors (PSCs/ZPICs) are developing algorithms and performing data analysis
related to POS coding for physician services. This included merging Parts A and B data as OIG
recommends. The MACs and PSCs/ZPICs will continue to work together in identifying
overpayments. When overpayments are identified, they are recovered consistent with the
agency's policies and procedures.


Attachment
 APPENDIX D: CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS
                                                            Page 4 of 4




                                        ATTACHMENT 


Data for Recommendation 2
The CMS requests that OIG send the data in the following format for Recommendation 2. For
each contractor ID, a separate CD with the outpatient and ASC claims on separate worksheet
tabs. The data fields should include all financial, provider and beneficiary fields necessary for a
complex medical review. Please include the name of the study, date ranges of the data and other
parameters on each CD. This documentation summary could be printed on the CD cover or
added as an additional worksheet. The title of each CD should also include the contractor
NameIID(s). We request that the overpayment data referred to in Recommendation 1 be sent on
discs separate from the nonsampled claims data referred to in Recommendation 2.

The CMS also requests two master files be prepared with all contractor data to be accessed
through the HHS/OIG delivery server. The first master file should include ASC data and the
second should include outpatient data. The data should include a contractor ID and contractor
name field. With this data, the CMS can create a "pivot table" to determine the rank of the
contractors based on their overpayment of paid dollar amounts.

Terminology
It would be more accurate to use "program safeguard contractors (PSC) and Zone Program
Integrity Contractors (ZPIC)" wherever the term "program safeguard contractors" is used.

Limitations of the sampling frame data base and resulting sample should be highlighted.
After analysis, the study concludes that physicians correctly coded the place-of-service (POS) for
11 percent of the sampled services and incorrectly coded the POS for 89 percent of the sampled
services. Although CMS agrees that problems exist with POS coding, we believe that the
occurrence of incorrect POS coding is not as prevalent as the draft report suggests. The
sampling frame database and resulting sample selection was limited to physicians' services for
which a corresponding "matching" outpatient hospital department (or ASC) service was
identified.

Physicians' services with varying levels of payment that were coded as being furnished in a non­
facility setting, without a matching outpatient hospital or ACS facility claim were excluded from
this study design. For example, a physician could furnish a diagnostic colonoscopy in his or her
office and submit the claim as POS "physician's office." In this case, the physician would be
paid the higher non-facility payment amount to compensate for the additional practice cost
associated with furnishing the service in the office setting (as opposed to the outpatient hospital
department or ASC). If the physician had furnished a service in the office, typically, we would
not expect to see a corresponding claim for the same service submitted by the hospital outpatient
department or ASC. As such, we anticipate that the error rate would have been significantly
lower if all physicians' services with varying payment levels, which were coded as being
furnished in a non-facility setting, had an equal chance of being selected. Given the limitations
of the sample frame database, we suggest that OIG clarify that the focus of this study is not to
measure and report on the place-of-service coding error rate.
